No. 20-440
IN THE

Supreme Court of the United States
MINERVA SURGICAL, INC.,
Petitioner,
v.
HOLOGIC, INC.,
Respondent.
ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

CERTIFICATE OF SERVICE
I, Thomas G. Saunders, a member of the bar of this Court, hereby certify that, on
this 31st day of March, 2021, all parties required to be served have been served copies
of the Brief for Pharmaceutical Research and Manufacturers of America as Amicus
Curiae Supporting Respondent in this matter by overnight courier to the addresses
below.
Counsel for Petitioner

Counsel for Respondent

ROBERT N. HOCHMAN
SIDLEY AUSTIN LLP
One South Dearborn Street
Chicago, IL 60603
(312) 853-2936
rhochman@sidley.com

MATTHEW MCMANUS WOLF
ARNOLD & PORTER LLP
601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5462
matthew.wolf@arnoldporter.com

THOMAS G. SAUNDERS
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
thomas.saunders@wilmerhale.com

